                          AUDIT OF
                  COLLEGIATE SYSTEMS, INC.
                   COMPLIANCE WITH THE
                      85 PERCENT RULE

                                FINAL AUDIT REPORT




                                  Audit Control Number 06-80012

                                          August 1999




Our mission is to promote the efficient                           U.S Department of Education
and effective use of taxpayer dollars                               Office of Inspector General
in support of American education                                                  Dallas, Texas
                        NOTICE
Statements that management practices need improvement, as
well as other conclusions and recommendations in this report,
represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by
appropriate Department of Education officials. This report
may be released to members of the press and general public
under the Freedom of Information Act.
                       EXECUTIVE SUMMARY
Three of the four proprietary schools owned by Collegiate Systems, Inc. (Collegiate) did
not receive at least 15 percent of their revenue from non-Title IV sources during the fiscal
year ending December 31, 1997. As a result, the schools did not qualify as eligible
institutions and were ineligible to participate in Title IV programs as of December 31,
1997. The three ineligible schools received $396,490 in Federal Pell Grants (Pell) and
$850,345 in Federal Family Education Loans (FFELP) during the year ending December
31, 1998. The three schools and our calculated percentages of Title IV revenue are:

v      Metropolitan College of Legal Studies-Tulsa, Oklahoma - 85.477%
v      Metropolitan College-Oklahoma City, Oklahoma - 85.277%
v      Metropolitan College of Court Reporting-Albuquerque, New Mexico - 86.920%

Under the Higher Education Act, proprietary institutions must derive at least 15 percent
of their revenues from non-Title IV sources to participate in Title IV programs.
Conversely, schools may not derive more than 85 percent of total revenue from Title IV
resources. This institutional eligibility requirement is commonly referred to as the 85
Percent Rule. Collegiate reported that its four proprietary schools met the requirements
of the 85 Percent Rule in the ANotes to Financial Statements@ of its annual financial
statement audit report for fiscal year 1997. In the 1997 calculations, Collegiate (1)
improperly included revenue from the sale of equipment and supplies that was not part of
the normal tuition and fees, and (2) failed to consider cash payments made by students
when calculating the amount of Title IV funds to disburse to students for living expenses.
In addition, Collegiate made mathematical errors in its 1997 calculation.

We recommend that the Chief Operating Officer for the Office of Student Financial
Assistance Programs:

1. take action to terminate the three schools that did not meet the requirements of
   the 85 Percent Rule unless Collegiate can demonstrate that the schools each
   met the requirement for the year ended December 31, 1998; and

2. require Collegiate to return $396,490 to the Department for Pell funds
   received and return $850,345 to the lenders for FFELP loans received by the
   schools. The amounts represent Title IV funds received by the three schools
   during the period January 1, 1998 through December 31, 1998.

Collegiate Systems Inc did not agree with our findings and recommendations. A
copy of their full written response is attached to this report. Exhibits that were
attached to the written response are available with written request.
                              DISTRIBUTION SCHEDULE
                             Audit Control Numbers 06-80012
                                                                    Copies

Auditee                                                                 1

Action Official

         Greg Woods, Chief Operating Officer
         Office of Student Financial Assistance Programs
         Department of Education
         ROB-3, Room 4004
         7th and D Streets, SW
         Washington, DC 20202-5132                                      1


Other ED Offices

         Jeanne Van Vlandren, Service Director
         Institutional Participation and Oversight Service, OSFAP       1

         Linda Paulsen, Service Director
         Accounting and Financial Management Service, OSFAP             1

OIG

         Inspector General                                              1
         Deputy Inspector General                                       1
         Assistant Inspector General for Investigation (A)              1
         Assistant Inspector General for Audit                          1
         Assistant Inspector General for Operations, Western Area       1
         Director, Student Financial Assistance                         1
         Special Counsel to IG                                          1
         Western Area Offices                                           3
         Eastern Area Offices                                           3

Others

         Judith Winston, General Counsel
         Office of General Counsel
         Department of Education
         FB6 400 Maryland Ave. SW
         Room 6E301
         Washington, DC 20202-2100                                      1
